                 UNITED STATES GOVERNMENT                      LIBRARY OF CONGRESS
                 Memorandum                                  Office of the Inspector General


TO:            Kathryn Mendenhall                                            April 22, 2005
               Acting Director, FedLink

FROM:          Karl W. Schornagel
               Inspector General

SUBJECT:       Cancellation of FedLink Momentum Conversion

In early 2003 FedLink management began investigating options for replacing the aging
System Management Information Network (SYMIN). The conceptual design of the
replacement system included an automated interface with FedLink's online registration
process.

During late 2003, FedLink was encouraged by the Office of the Chief Financial Officer
(OCFO) and the Office of the Inspector General (OIG) to consider the advantages of using
Momentum Financial System technology for the SYMIN replacement. This encouragement
was based on the perceived advantages of a fully integrated Library-wide financial system.

OCFO, FedLink and CGI-AMS determined in Spring 2004 that Momentum could support
FedLink operating requirements. FedLink and CGI-AMS negotiated an implementation
strategy that appeared to be economically feasible. This strategy required FedLink to assume
major responsibility for developing the online registration interface, managing the data
conversion and re-engineering its processes to conform to standard Momentum workflows.

During late November 2004, OIG joined the working group developing SYMIN's
replacement. OIG reviewed development plans, evaluated the role each participant group was
playing and monitored development progress. At the same time OIG was reviewing and
evaluating post implementation issues for the primary Momentum conversion. OIG concluded
that there were high risks endangering the FedLink project and FedLink's competitive position
in its market.

In mid February 2005, OIG convened a meeting with FedLink, the Acting Chief Financial
Officer and her staff to discuss these risks. A consensus was reached for actions to mitigate
the risks. These actions included adding a professional project manager independent of CGI-
AMS to direct the project and install a rigorous testing program. Additionally, the group
asked FedLink to revise the CGI-AMS task order placing CGI-AMS in control of conversion
tasks and deliverables. This was based on FedLink's inexperience with system-wide
conversions and the benefits derived from consolidating conversion tasks. Upon
further consultation, FedLink determined these changes added another $1,150,000 in costs to
the development project.

At a meeting on March 11, 2005 FedLink advised OCFO and OIG that projected future
revenues were inadequate to offset projected conversion costs. Based on this evaluation,
FedLink management decided to terminate the Momentum development and conversion
project. OIG concurs with this decision. We are disappointed with the excessive costs
associated with Momentum and the potential dampening effect these costs will have on future
efforts to build a fully integrated financial system at the Library. However, proceeding
without extensive testing and CGI-AMS control of the conversion process posed unacceptable
risks.

The stability and viability of the aging SYMIN system was the primary rationale for the
conversion project. The termination of the project leaves this concern unanswered.
Consequently, it is our recommendation that your staff pursue alternative cost effective
measures for preserving and supporting SYMIN until future revenues can support the
conversion to Momentum. This should include finding a cost effective product for developing
an automated interface between SYMIN and FedLink's online registration.

In terminating the project FedLink requested a complete summary from CGI-AMS of their
work. We agree that retaining full documentation of the conversion work product is
important. When the project is restarted, FedLink may be able to derive benefits from the
current conversion efforts.

We appreciate your cooperation on this project and the opportunity to assist you.
